No. 20-18
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
---------------------------------♦--------------------------------On Writ Of Certiorari To The
California Court Of Appeal,
First Appellate Division
---------------------------------♦--------------------------------BRIEF OF LOS ANGELES COUNTY
POLICE CHIEFS’ ASSOCIATION AS
AMICUS CURIAE IN SUPPORT OF
THE JUDGMENT BELOW
---------------------------------♦--------------------------------J. SCOTT TIEDEMANN*
ALEX Y. WONG
LIEBERT CASSIDY WHITMORE
6033 W. Century Blvd., Suite 500
Los Angeles, CA 90045
(310) 981-2000
stiedemann@lcwlegal.com
awong@lcwlegal.com
*Counsel of Record
Counsel for Amicus Curiae
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
I.

INTERESTS OF THE AMICUS CURIAE....

1

II.

SUMMARY OF THE ARGUMENT .............

2

III.

ARGUMENT ................................................

5

A. FOURTH AMENDMENT RIGHTS WILL
CONTINUE TO RECEIVE ADEQUATE
PROTECTION UNDER THE CATEGORICAL RULE, AS THEY HAVE IN
CALIFORNIA ........................................

5

1. Practical Considerations Already Limit
Police Use of Warrantless Entries
and the Potential for Abuse of the
Categorical Rule ...............................

6

a. Nature of the Crime ...................

7

b. Public Safety ...............................

10

c. Officer Safety ..............................

11

d. Public Scrutiny ...........................

12

e. Civil Liability ..............................

13

2. Department Policy, Officer Training,
and Internal Review Deter Potential
Police Overreach ............................... 14
a. Warrantless Entries ...................

14

b. Body Worn Cameras ...................

16

c. Vehicle Pursuit Policies ..............

18

d. Foot Pursuit Policies ...................

20

e. Internal Review ..........................

22

ii
TABLE OF CONTENTS—Continued
Page
3. Existing Law Provides Civil and
Criminal Judicial Remedies to Address Unlawful Entries by Police
onto Private Property ....................... 23
B. REJECTING THE CATEGORICAL
RULE WILL INCREASE THE STRAIN
ON LIMITED POLICE RESOURCES
BY ENCOURAGING MISDEMEANANTS TO FLEE INTO RESIDENCES,
WHICH WILL REQUIRE A MUCH
LARGER POLICE RESPONSE ............ 24
IV. CONCLUSION.............................................

29

APPENDIX
1.

California Commission on Peace Officer
Standards and Training, Learning Domain
16: Search and Seizure, Chapter 3: Warrantless Searches and Seizures ................... App. 1

2.

El Segundo Police Department Policy Manual, Policy 151.55 – Supervisor’s Responsibility and Control [Vehicle Pursuits] ......... App. 10

3.

Hawthorne Police Department Policy Manual,
Policies 300.5 – Reporting the Use of Force
and 300.6 – Medical Consideration ........... App. 17

4.

La Verne Police Department Policy Manual,
Policy 429 – Foot Pursuits .......................... App. 25

5.

Long Beach Police Department Policy Manual, Policy 7.1.7 – Vehicle Pursuits ............ App. 34

iii
TABLE OF CONTENTS—Continued
Page
6.

Los Angeles Police Department Policy Manual, Volume 3, Policy 579.15 – Objectives of
Body Worn Video ........................................ App. 48

7.

Torrance Police Department Policy Manual,
Policy 307 – Vehicle Pursuits ..................... App. 68

iv
TABLE OF AUTHORITIES
Page
CASES
People v. Lloyd, 216 Cal.App.3d 1425 (1989) ...... 2, 3, 5
Missouri v. McNeely, 569 U.S. 141 (2013) .............. 4, 25
CONSTITUTIONAL PROVISION
U.S. Const. amend. IV ......................................... passim
STATUTES
42 U.S.C. § 1983 ..........................................................24
Cal. Penal Code § 17(a) .................................................2
Cal. Penal Code § 19 .....................................................2
Cal. Penal Code § 192(c) ...............................................7
Cal. Penal Code § 242 ...................................................8
Cal. Penal Code § 243(a) ..................................... 7, 8, 15
Cal. Penal Code § 243(d)..................................... 7, 8, 15
Cal. Penal Code § 243(e)(1) .............................. 7, 15, 27
Cal. Penal Code § 273.5(a) ............................................7
Cal. Penal Code § 273a(a) ....................................... 8, 15
Cal. Penal Code § 273a(b) ....................................... 8, 15
Cal. Penal Code § 273d(a)...........................................15
Cal. Penal Code § 487 ............................................... 8, 9
Cal. Penal Code § 817(c) .............................................26
Cal. Penal Code §§ 13500 et seq. ................................14

v
TABLE OF AUTHORITIES—Continued
Page
Cal. Vehicle Code § 17004.7 ........................................18
Cal. Vehicle Code § 17004.7(c)(9)(A) ..........................19
RULE
Sup. Ct. R. 37.6 .............................................................1
OTHER AUTHORITIES
California Commission on Peace Officer Standards and Training, Learning Domain 16: Search
and Seizure (Version 4.8; Chapter 3: Warrantless Searches and Seizures) .............................. 14, 15
El Segundo Police Department Policy Manual..........22
Hawthorne Police Department Policy Manual ..........22
La Verne Police Department Policy Manual........ 20, 21
Long Beach Police Department Policy Manual .........18
Los Angeles Police Department Manual, Volume
3, Policy 579.15: Objectives of Body Worn
Video .................................................................. 16, 17
Torrance Police Department Policy Manual ..............19

1
I.

INTERESTS OF THE AMICUS CURIAE1

The Los Angeles County Police Chiefs’ Association
(“LACPCA”) submits this brief in support of Court-appointed amicus curiae Amanda K. Rice. The LACPCA
is a nonprofit mutual benefit corporation consisting of
the Police Chief Executives of the 45 independent cities in Los Angeles County. The LACPCA focuses on advancing the science and art of police administration
and crime prevention in Los Angeles County; coordinating the implementation of law enforcement efforts
by local law enforcement leaders; and developing,
teaching, and disseminating professional law enforcement practices.
The LACPCA submits this brief to offer insight
into law enforcement practices under existing California law. Specifically, what the parties call the “categorical rule” allows police to pursue misdemeanants into
a home without a warrant under the exigent circumstances of hot pursuit. The fear of police abuse is overblown because the rule does not exist in a vacuum. To
the contrary, statewide training standards limit police
conduct during warrantless searches and seizures. Department policies provide internal safeguards against
unlawful warrantless entries by encouraging officers
to terminate pursuits, by applying internal review, and
1

All parties to this matter have provided written consent for
this amicus curiae brief. Pursuant to Supreme Court Rule 37.6,
no counsel for any party authored this brief in whole or in part.
No one other than the amicus curiae, its members, or its counsel
made a monetary contribution to the preparation or submission
of this brief.

2
by punishing officer misconduct. Furthermore, existing
remedies provide external safeguards: criminal defendants can move to suppress evidence and civil plaintiffs
can bring claims for civil rights violations. Individually,
police officers consider many factors when deciding
whether to continue a pursuit or make a warrantless
entry onto private property. These considerations, supported by department policies, lead officers to decide
against continuing a pursuit or making a warrantless
entry in many circumstances.
The categorical rule is a small part of a much
larger process. While it allows warrantless entries under the limited, exigent circumstances of hot pursuit,
many other forces act upon police officers to regulate
their conduct and guard against abuse. The categorical
rule allows police officers some necessary discretion at
a critical point of pursuits and arrests. Accordingly, the
LACPCA supports the underlying decision of the California Court of Appeal, First Appellate Division and
urges that it should be upheld.
II.

SUMMARY OF THE ARGUMENT

California law allows police officers to make warrantless entries onto private property for the limited
exigency of hot pursuit. This includes hot pursuit of
misdemeanants.2 The court in People v. Lloyd, 216
2

Cal. Penal Code § 17(a) defines felonies as crimes that are
“punishable with death, by imprisonment in the state prison, or”
by imprisonment in county jail for a specified term. Cal. Penal
Code § 19 defines misdemeanors as offenses that are punishable

3
Cal.App.3d 1425, 1430 (1989) recognized that technical
distinctions between felonies and misdemeanors had
no bearing on the permissibility of warrantless entries.
This is especially true in California, where “wobbler”
crimes may be charged as misdemeanors or felonies
depending on the facts of a given case. Highly dynamic
situations like pursuits and warrantless entries should
not depend on such a capricious distinction.
Instead, the focus has shifted to more practical
considerations in the decades since Lloyd. Police departments train officers to balance the competing risks
to officer and public safety should a pursuit continue,
against the risk caused by allowing a suspect to escape.
As a result, violent offenses (whether misdemeanors
or felonies) balance more toward pursuit and arrest,
while non-violent offenses (whether misdemeanors or
felonies) balance more toward terminating pursuit before warrantless entries occur. Police also consider
public safety, officer safety, public scrutiny, and potential liability. Different circumstances raise different
practical challenges, which officers have become better-equipped to address under the categorical rule.
Internal safeguards against police abuse have also
developed since Lloyd. California has developed statewide training standards for police officers, which set
requirements and limitations for warrantless searches
and seizures. Police departments implement many policies that bear on suspect pursuits and warrantless
by up to six months’ imprisonment, up to a one-thousand-dollar
fine, or both, unless otherwise defined by law.

4
entries. Modern pursuit policies, in particular, encourage officers to terminate vehicle or foot pursuits under
many circumstances, before warrantless entries become necessary. Discipline policies punish officer misconduct, even where the misconduct did not violate any
laws. Certain high-risk activities that may occur in relation to warrantless entries, like vehicle pursuits and
uses of force, receive heightened scrutiny and internal
review to guard against abuse.
External safeguards provide remedies to individuals who believe they were subjected to an unlawful
search or seizure. Criminal defendants can (and often
do) move to suppress evidence when they believe it resulted from an unlawful search or seizure. Likewise,
civil plaintiffs can bring civil rights claims against police officers or departments if they believe their constitutional rights were violated.
If the Court rejects the categorical rule, it will
have a chilling effect on law enforcement. Petitioner
and Respondent propose an alternative rule that will
require a reviewing court to “evaluate each case of alleged exigency based on its own facts and circumstances.” Respondent’s Brief in Opposition to a Writ of
Certiorari 11–12 (citing Missouri v. McNeely, 569 U.S.
141, 150 (2013) (internal quotation marks omitted)).
This approach discounts all of the developments that
exist in conjunction with the categorical rule. It focuses
too much on technical distinctions between felonies
and misdemeanors that do not matter in the context of
the Fourth Amendment.

5
III. ARGUMENT
A. FOURTH AMENDMENT RIGHTS WILL
CONTINUE TO RECEIVE ADEQUATE
PROTECTION UNDER THE CATEGORICAL RULE, AS THEY HAVE IN CALIFORNIA
In 1989, the California Court of Appeal, Second
District, held that police officers acted lawfully when
they sought to follow a misdemeanant into his home
without a warrant while in hot pursuit. People v. Lloyd,
216 Cal.App.3d 1425, 1430 (1989). The court rejected
the defendant’s Fourth Amendment challenge and
stated, “[T]he fact that the offenses justifying the initial detention or arrest were misdemeanors is of no
significance in determining the validity of the entry
without a warrant.” Id. (internal citations omitted).
In the decades since Lloyd, California police officers have operated under what the parties here label a
“categorical rule” for hot pursuits. This categorical rule
allows police officers to enter private property (notably,
homes or residences) without a warrant while in hot
pursuit of a misdemeanant. Lloyd, 216 Cal.App.3d at
1430. Under California’s categorical rule, pursuits that
result in warrantless entry into homes are still extremely rare occurrences. This is because, contrary to
the fears expressed by Petitioner, Respondent, and
amici curiae in support of Petitioner, the categorical
rule is not a shortcut to warrantless entries into private homes. Rather, it has allowed pursuing officers to
focus on more relevant factors and make on-theground, practical decisions regarding officer and public

6
safety while pursuing suspects. Even under the categorical rule, as it has existed in California, Fourth
Amendment rights have received, and will continue to
receive adequate protection.
1. Practical Considerations Already Limit
Police Use of Warrantless Entries and
the Potential for Abuse of the Categorical Rule
Fifty years ago, police officers routinely chased
suspects regardless of the offense. Law enforcement
has changed drastically over the last half-century. The
modern trend has favored fewer pursuits and greater
exercise of discretion. This trend continues, even under
the categorical rule in California. The decision whether
to pursue focuses on the nature of the underlying offense—specifically, whether it involves a violent crime.
Public safety, officer safety, public scrutiny, and the potential for civil liability also limit the number of pursuits, which limits the number of warrantless entries
as a result.
Police do not always follow misdemeanants into
homes. Rather, they weigh the available information
and make a decision in conjunction with their supervisors. It is standard practice to employ field supervising
officers and/or watch commanders who are also responsible for monitoring pursuits. The available facts pass
through two to three levels of review: responding officers observe, report, and react to the situation; field supervisors receive the information and provide support

7
to the officers; and watch commanders similarly monitor pursuits to provide additional support and make
decisions where necessary. Officers at all three levels
have the authority to terminate a pursuit. As a result,
officers frequently decide not to continue pursuits or
make warrantless entries, even with California’s categorical rule in place.
a. Nature of the Crime
Police officers are trained to consider many factors
while pursuing a suspect. The nature of the underlying
crime is a significant factor. Generally, property crimes
are not worth a sustained pursuit. The chance to prosecute a minor vandalism charge, for example, does not
balance well against the concerns for public and officer
safety that arise in a pursuit. In such a situation, departments would expect their officers, field supervisors, and watch commanders to favor calling off the
pursuit. However, violent crimes often do require pursuit because the violent individual poses an ongoing
threat to others.
The misdemeanor-felony distinction becomes especially difficult in jurisdictions like California, where
the law recognizes many “wobbler” offenses—crimes
that may be charged as a misdemeanor or a felony depending on the facts.3 In many circumstances, police

3

See Cal. Penal Code §§ 192(c) (vehicular manslaughter);
243(a) (misdemeanor battery); 243(d) (felony battery); 243(e)(1)
(misdemeanor domestic violence); 273.5(a) (felony domestic violence);

8
and prosecutors cannot determine whether an offender
has committed a misdemeanor or felony until after the
arrest and subsequent investigation have concluded. A
reviewing court may have the ability to determine that
officers were pursuing a misdemeanant, but, in many
instances, those officers cannot make the same distinction during the pursuit itself.
Police do not focus on statutory differentiations
between misdemeanors and felonies when they decide
whether to pursue a suspect. Such categorizations are
moderately useful to the extent that they align with
the seriousness of a given crime, but they draw attention away from more practical and important considerations. For example, when police receive a call that an
ex-boyfriend is at an ex-girlfriend’s home attacking her
mother, and the suspect flees into the house, they do
not ask whether the attack qualifies as a misdemeanor
battery4 or felony battery5 before responding. Police respond, and if the suspect flees they will give chase. In
such a case, the officers have a strong motivation to
complete the pursuit because the batterer could inflict
more harm if police do not take him into custody.
Property crimes can also merit pursuit where
there are extenuating circumstances. For example, police may decide against pursuit, or else may call off
273a(a) (felony child abuse); 273a(b) (misdemeanor child abuse);
& 487 (grand theft) for examples.
4
See Cal. Penal Code §§ 242 and 243(a) (defining the elements of criminal battery and the punishment for misdemeanor
battery, respectively).
5
See Cal. Penal Code § 243(d) (defining felony battery).

9
pursuit, for a single instance of grand theft.6 However,
where police identify a team of offenders who have
committed multiple grand thefts, then they would have
more reason to pursue. The decision relies less on
grand theft’s classification as a misdemeanor or felony
and more on the extenuating circumstances that show
an ongoing harm to the community. Under such circumstances, pursuit for a property crime becomes reasonable. However, property crimes generally do not
warrant pursuit regardless of whether they are felonies or misdemeanors—especially where there are no
extenuating circumstances to favor pursuit. Accordingly, officers’ consideration of the underlying crime
acts as a limit to the number of pursuits resulting in
warrantless entries, even under the categorical rule.
Local, county, and state-level prosecutors may add
nuance to considerations of the underlying crime. A jurisdiction’s prosecutors sometimes implement policies
that favor or disfavor prosecuting certain crimes. For
example, a prosecutor may adopt a policy against prosecuting certain misdemeanors. Because the policy exists outside an individual pursuit and departments
have time to adjust to it, the misdemeanor-felony distinction becomes somewhat more workable. Police
departments can identify behaviors or activities that
are specific to the offenses covered by a given policy.
6

Grand theft is a “wobbler” property crime that may be
charged as a misdemeanor or a felony depending on the circumstances, where the offender takes “money, labor, or real or personal property” that is greater than $950 in value or else falls into
another statutorily defined category. See Cal. Penal Code § 487.

10
Departments can then counsel their officers to recognize the signs that would indicate an offense that prosecutors do not wish to pursue, and they can provide
additional training if necessary. Officers who witness
those real-world behaviors or activities can comply
with prosecutorial policies by declining to pursue or
make warrantless entries. The same police discretion
that exists under the categorical rule also promotes cooperation between police and prosecutors.
b. Public Safety
Every pursuit bears upon public safety. Whether
on foot or in a vehicle, pursuits often take place partially or wholly in public. Vehicle pursuits are especially concerning from a public safety standpoint,
because a suspect behind the wheel of a two-ton vehicle
can inflict terrible damage. Accordingly, police procedure has adapted to the risks of high-speed vehicle
pursuits. More departments have begun implementing
standards that encourage officers, field supervisors, or
watch commanders to call off vehicle pursuits if the
suspect drives too dangerously. Officers have even less
incentive to continue a vehicle pursuit where they are
able to secure identifying information, like a license
plate number or driver’s license. When officers positively identify the suspect, they have a better chance
of making the arrest later, under safer conditions. Police officers are trained to consider the risks that a fleeing vehicle poses to the public. The risks factor into
whether the pursuit should continue, and, absent

11
strong contrary factors, best practices favor terminating the pursuit.
While a suspect on foot can still cause harm to people or property, the analysis changes slightly in that
officers are more inclined to chase violent offenders
where they know or have reason to believe the individual has already caused bodily harm. A suspect who has
already committed violence may do so again. In such
instances, public safety often favors continuing the
pursuit to complete the arrest. Conversely, officers,
field supervisors, or watch commanders may be more
inclined to call off a foot pursuit for a property crime.
Property crimes do not involve violence against others.
There, the risk posed by the misdemeanant escaping is
lower than for a violent crime, and the risks to public
safety are more likely to tip the balance against pursuit. Again, consideration of the risks to public safety
limit the number of pursuits resulting in warrantless
entry.
c. Officer Safety
Police entry into a home raises serious concerns
for officer safety. While suspects sometimes flee to
homes or private residences, pursuits that begin in
public more often end in public. On occasions where
suspects do turn toward homes or residences, police often apprehend them in the street or front yard, before
they reach the interior. However, when suspects do enter a home, officers must decide whether to follow. The
decision whether to follow a fleeing suspect into a

12
home relies on many factors, including but not limited
to: whether the officer has maintained visual contact
with the suspect; whether other officers are present to
give support; how long it will take backup to arrive;
whether the home is visibly occupied; whether the suspect poses a threat to the occupants; and whether the
underlying offense was a violent crime.
Officers are trained to consider the fact that they
likely will not know the building’s layout. They could
be exposing themselves to ambush. They may have to
operate without supporting units for an extended period of time. They could expose the occupants to danger
during a confrontation with the suspect. On the other
hand, where officers can maintain an unobstructed
view of the suspect, can follow closely without breaking
visibility, or have reason to believe the suspect poses
an immediate threat to the occupants, then continued
pursuit may provide the best resolution.
The decision to continue pursuit and enter a home
is highly discretionary. It focuses on the practical facts
and circumstances of each individual pursuit. Even
under the categorical rule, officer safety considerations
often weigh against warrantless home entries, absent
extenuating circumstances.
d. Public Scrutiny
Police departments give constant consideration to
public sentiment and perception. Recent public opinion
has directed incredible scrutiny at law enforcement
agencies across the country. Public scrutiny shapes

13
police action; departments expect their officers to conduct themselves at all times in a competent and professional manner.
Police departments operate optimally when they
have the full trust, support, and goodwill of the communities they serve. Home entries are necessary from
time to time under certain circumstances, but police
understand that it takes only one poorly handled entry
onto private property to lose the public’s trust. The fact
that departments rely upon the continued support of
the public to effectively perform their missions also
serves to limit warrantless entries into homes and further limits the potential for abuse of the categorical
rule.
e. Civil Liability
By extension, law enforcement agencies do not
want to be sued. Lawsuits cost time, money, and resources. Judgments against a department must be
paid out of public funds, officers may also be held individually liable under certain circumstances (such as
unreasonable uses of force), and lawsuits can tarnish
the reputations of officers and departments alike. Even
where an agency receives a favorable verdict, or is able
to negotiate a quick, low-cost settlement, there are still
costs for legal representation and time spent away
from the job. An officer who must testify in a legal proceeding cannot also perform his or her job duties. Lawsuits are bad for all parties involved since they reduce
a department’s effectiveness and ability to enforce the

14
law. Accordingly, departments devote significant resources toward ensuring proper police conduct.
2. Department Policy, Officer Training,
and Internal Review Deter Potential
Police Overreach
Policies and procedures will vary from department
to department, but they invariably aim to promote best
practices with an emphasis on officer conduct. The below sections address certain policies and practices that
may apply in a misdemeanant pursuit, including vehicle and foot pursuit policies, as well as internal review
and reporting policies. These policies and practices exist under the categorical rule in California and provide
additional safeguards against police overreach.
a. Warrantless Entries
California has developed statewide training
standards for warrantless entries under the categorical rule. The California Department of Justice created
the Commission on Police Officer Standards and Training (“POST”). Cal. Penal Code §§ 13500 et seq. POSTdeveloped training limits the scope of warrantless entries under exigent circumstances.7 Once officers make
a warrantless entry under exigent circumstances, they
may take only those actions that are necessary to
7

California Commission on Peace Officer Standards and Training, Learning Domain 16: Search and Seizure (Version 4.8; Chapter 3: Warrantless Searches and Seizures) (LACPCA Appendix
App. 1–App. 9) (June 2017).

15
resolve the emergency. The training provides examples
of emergencies, including instances of child abuse,8 violent assault,9 and domestic violence.10 Police may also
enter private property to prevent a suspect’s escape or
the imminent destruction of evidence, but they may
not take actions beyond those necessary to capture the
suspect or otherwise deemed reasonable under the
Fourth Amendment.11 The training materials explicitly
state that, after the exigency ends, officers must leave
the private property within a reasonable amount of
time and may not reenter without a warrant or the
owner’s consent.12

8

Child abuse is another “wobbler” offense that may be charged
as a misdemeanor or a felony under California law. See Cal. Penal
Code § 273a(a) (defining felony child abuse); Cal. Penal Code
§ 273a(b) (defining misdemeanor child abuse). Similarly, infliction of physical punishment on a child (Cal. Penal Code § 273d(a))
may be charged as a felony or a misdemeanor depending on the
facts of the particular case.
9
Cal. Penal Code §§ 243(a) & (d) (defining misdemeanor and
felony battery, respectively).
10
Cal. Penal Code § 243(e)(1) (defining misdemeanor domestic violence).
11
Cal. POST, Learning Domain 16, supra note 7 (LACPCA
Appendix App. 6–App. 8). The POST training materials note that
exigent circumstances permit entry onto private property “especially if the suspect is armed and dangerous or has just committed
a violent felony.” Here, the training’s use of the term “violent felony” acts as an example where warrantless entry is “especially”
reasonable. It does not exclude warrantless entries based on misdemeanor pursuits, nor does it reflect the demanding nature of
real-time analysis that police officers apply during pursuits.
12
Cal. POST, Learning Domain 16, supra note 7 (LACPCA
Appendix App. 8).

16
POST standards train police officers to make warrantless entries only under appropriate exigent circumstances. They limit the scope of warrantless searches
and seizures to the confines of the exigency itself. They
require officers to leave the private property within a
reasonable amount of time, and they bar reentry unless
officers obtain a warrant or the owner’s permission. Accordingly, POST training limits police overreach by
defining the boundaries of warrantless entries and requiring officers to leave once the exigent circumstance
has ended. Police officers can already make warrantless arrests for misdemeanors committed in the officer’s
presence. Where probable cause for a warrantless arrest already exists, in the midst of a hot pursuit a warrantless entry onto private property for the limited
purpose of completing the arrest does not represent a
further degradation of Fourth Amendment rights, particularly where the officers leave within a reasonable
time.
b. Body Worn Cameras
Many departments require officers to activate
body worn video recording devices (“body worn cameras”) during pursuits. For example, the Los Angeles
Police Department (“LAPD”) requires officers to activate body worn cameras during vehicle stops, pedestrian stops, vehicle pursuits, and foot pursuits.13 Body
13

Los Angeles Police Department Manual, Volume 3, Policy
579.15: Objectives of Body Worn Video (LACPCA Appendix App.
50–App. 51) (also requiring officers to activate bodycams for Code
3 responses; calls for service; searches; arrests; uses of force;

17
worn cameras promote accountability; help resolve disputed accounts of a given encounter; help resolve complaints against officers, including false allegations by
members of the public; aid evidence collection and
later investigation; and deter criminal activity or uncooperative behavior by individuals who learn they are
being recorded.
The LAPD and departments with similar body
worn camera policies expect their officers to record
misdemeanant pursuits. Whether by vehicle or on foot,
officers are required to start recording at the initial
stop. Body worn camera policies regularly specify that
officers are required to record law enforcement activities in their entirety.14 This would include the initial
contact, any ensuing pursuit, any warrantless entry
onto private property, any use of force, the arrest, and
any interrogation of the suspect afterward. Officers
know that their actions are recorded and subject to
later scrutiny. Consequently, body camera policies create an additional layer of accountability and guard
against police misconduct, including during warrantless entries.

in-custody transports; witness and victim interviews; crowd management; and situations where the officer’s judgment deems that
video recording would aid the efforts of law enforcement).
14
E.g., LAPD Manual, supra note 13 (LACPCA Appendix
App. 51) (“The [body worn camera] shall continue recording until
the investigative or enforcement activity involving a member of
the public has ended. If enforcement or investigative activity with
a member of the public resumes, the officer shall activate the
[body worn camera] device and continue recording.”).

18
c. Vehicle Pursuit Policies
Departments expect officers to know when they
are allowed to begin a vehicle pursuit.15 This involves
balancing all available information, including but not
limited to the seriousness of the underlying crime; the
crime’s relationship to community safety; whether the
fleeing suspects pose a danger to community safety;
whether officers are familiar with the area and can
navigate it safely; traffic, weather, and road conditions
that bear on officer and public safety during a pursuit;
the presence of pedestrians and other innocent bystanders; and whether the officers have identified the
suspects and may apprehend them more safely at a
later date.16 Policies also dictate when officers should
terminate a pursuit.17 If the risks to public or officer
safety outweigh the risks caused by allowing the suspect to escape, then officers are expected to perform the
ongoing analysis and stop pursuing.18
15

E.g., Long Beach Police Department Policy Manual (LACPCA Appendix App. 35–App. 36) (June 19, 2020) (providing an
example of a comprehensive vehicle pursuit policy).
16
E.g., Long Beach PD Policy Manual (LACPCA Appendix
App. 36–App. 38) (listing 15 factors for officers to consider before
initiating a pursuit).
17
E.g., Long Beach PD Policy Manual (LACPCA Appendix
App. 43) (listing conditions that require officers to terminate pursuits).
18
In California, police departments may qualify for statutory
immunity from civil liability resulting from vehicle pursuits. In
order to do so, they must adopt a written vehicle pursuit policy
that meets certain criteria and provide annual training to their
officers. Cal. Vehicle Code § 17004.7. The written pursuit policy
must include factors that officers should consider when deciding

19
There has been a recent move toward non-retaliation clauses to protect officers or supervisors who call
off a pursuit. Departments recognize that vehicle pursuits can be dangerous and unpredictable, so they do
not want to second-guess officer decisions to terminate
a pursuit.19 Accordingly, departments have begun
adopting policy language that frees officers from discipline if they decide to terminate a vehicle pursuit due
to the risks involved.
Modern vehicle pursuit policies tend to reduce the
number of warrantless home entries, because they increase the likelihood that officers will terminate a vehicle pursuit before it requires a warrantless entry.
They require officers and supervisors to reflect before
and during a vehicle pursuit. Many policies also prohibit retaliation for an officer’s decision to terminate
pursuit. In situations where the pursuit continues and
officers move to capture the suspects, policies reinforce
public and officer safety as priorities.20 All of these
whether to terminate a pursuit. The list begins with an ongoing
evaluation of the risks to officer and public safety. Cal. Vehicle
Code § 17004.7(c)(9)(A). The section focuses on safety concerns
during a vehicle pursuit. As a result, police departments have increasingly emphasized discretion in vehicle pursuits.
19
E.g., Torrance Police Department Policy Manual (LACPCA Appendix App. 68) (“In recognizing the potential risk to public safety created by vehicular pursuits, no officer or supervisor
shall be criticized or disciplined for deciding not to engage in a
vehicular pursuit because of the risk involved.”).
20
E.g., Torrance PD Policy Manual (LACPCA Appendix App.
92) (“Officers should consider safety of the public and the involved
officers when formulating plans to contain and capture the suspects [following a vehicle pursuit].”).

20
elements guard against police abuse of warrantless entries, because they allow departments to scrutinize officer conduct at multiple points before a warrantless
entry occurs. They also encourage officers to terminate
vehicle pursuits when practical, before warrantless entries become necessary.
d. Foot Pursuit Policies
Many departments also have policies specific to
foot pursuits.21 Several considerations overlap with
those of vehicle pursuits: risks to public and officer
safety, knowledge of the local area, the presence of innocent bystanders, et cetera. Foot pursuits differ from
vehicle pursuits in that the suspect is less likely to escape by gaining distance from police. Suspects fleeing
on foot are more likely to try to hide. Running suspects
rarely enter homes. They face many unknown factors:
whether the home is occupied; whether the occupants
will work against the entrant; whether the suspect can
gain easy access (against locked doors, closed windows,
and the like); or whether the suspect can escape easily
or will become trapped inside. Suspects are more likely
to hide where they can gain easy access and believe
they stand a better chance of evading police: in businesses with public bathrooms; behind walls or fences;
in backyards; or under vehicles.

21

E.g., La Verne Police Department Policy Manual (LACPCA Appendix App. 25–App. 33) (Oct. 12, 2020) (providing an example of a comprehensive foot pursuit policy).

21
Like vehicle pursuit policies, foot pursuit policies
include safeguards that reduce the likelihood of warrantless entries. Foot pursuits require the same continuing analysis of risks that may compel officers to
terminate a pursuit. Officers have the same authority
to call off a foot pursuit. More departments are also
adopting non-retaliation clauses for officers who decide
to call off foot pursuits due to the risks involved.22 Because a running suspect is less likely to escape without
a vehicle, foot pursuit policies offer surveillance and
containment as safer alternatives to an active chase.23
For example, officers are trained to consider the availability of air support, canine searches, or thermal imaging and other technologies to locate and capture
running suspects. Departments also expect officers to
recognize specific factors that justify calling off a pursuit, such as losing the suspect’s location; observing an
injury to an officer or a third party that requires immediate attention, with no other emergency responders nearby; or pursuing alone with no support.24 All of
these elements tend to reduce the number of warrantless entries under the categorical rule.

22

E.g., La Verne PD Policy Manual (LACPCA Appendix App.
26) (“[N]o officer or supervisor shall be criticized or disciplined for
deciding not to engage in a foot pursuit because of the perceived
risk involved.”).
23
E.g., La Verne PD Policy Manual (LACPCA Appendix App.
26–App. 27) (describing various methods of surveillance and containment as safer alternatives to foot pursuits).
24
See, e.g., La Verne PD Policy Manual (LACPCA Appendix
App. 27–App. 29) (listing 15 factors that would support a decision
to terminate a foot pursuit).

22
e. Internal Review
Police departments maintain internal review procedures to correct officer misconduct and ensure a high
standard of police operations. Officer misconduct occurs
when an officer’s behavior deviates from the department’s standards and policies. Department standards
and policies often set higher bars for officer behavior
than those set by law, so that an officer’s conduct might
not have violated any laws but may still violate department policy. The least serious deviations result in
counseling and training. Many instances of misconduct
trigger the disciplinary process, which involves progressive discipline up to and including termination.
The seriousness of the discipline will depend on the
gravity of the misconduct, whether the officer has engaged in past misconduct, and other factors.
Separately, certain police actions can trigger supervisory review automatically, in the absence of any
misconduct. For example, many departments require
supervisory review and supplemental reports for vehicle pursuits.25 Similarly, many departments require expanded reporting and investigation procedures for
officer uses of force.26 These requirements apply even
25

E.g., El Segundo Police Department Policy Manual (LACPCA Appendix App. 14) (accessed Dec. 31, 2020) (requiring supervising officers to write post-pursuit reports including analysis of
pursuit tactics, compliance with department policy, legal issues,
and evaluation of any force used).
26
E.g., Hawthorne Police Department Policy Manual (LACPCA Appendix App. 19–App. 23) (Jan. 14, 2020) (requiring officers to immediately and completely document and report any use
of force; and requiring supervisors to separately investigate the

23
where a reviewing district attorney (or similarly situated official) has determined there was no violation of
law and the department has determined there was no
officer misconduct.
An officer’s decision to pursue a suspect or to use
force still comes under review, even where law and
policy find no violations. Officers who conduct vehicle
pursuits know that the department will review their
decisions. Similarly, officers who engage in uses of force
know that their actions will be subject to review and
independent investigation. These internal review
policies moderate officer conduct and act as a check
on possible abuse. These policies also address the most
dangerous parts of a hot pursuit ending in a warrantless entry: vehicle pursuits and uses of force. By moderating officer conduct in high-risk situations, these
policies guard against officer misconduct under the
categorical rule.
3. Existing Law Provides Civil and Criminal Judicial Remedies to Address Unlawful Entries by Police onto Private
Property
External safeguards already protect Fourth
Amendment rights under California’s categorical rule.
In the criminal context, defendants frequently exercise
their ability to challenge police searches and seizures
underlying facts, ensure medical treatment is given, interview
subjects upon whom the force was applied, photograph any injuries, et cetera).

24
through motions to suppress evidence obtained from
allegedly deficient procedures. Police officers and prosecutors know that a motion to suppress can undo an
entire prosecution if it removes key evidence from
the case. The enormous consequences of an unlawful
search or seizure motivate officers to comply with constitutional requirements.
Civilly, plaintiffs can bring an action under United
States Code Title 42 Section 1983. Even where the government declines to prosecute, wronged individuals
can assert a civil claim and seek compensation. Officers and departments do not want to be found civilly
liable, which further incentivizes police to conduct
searches and seizures lawfully. These restraints exist
under the categorical rule. They give recourse to individuals who believe police may have acted unlawfully,
and they create external checks on searches and seizures.
B. REJECTING THE CATEGORICAL RULE
WILL INCREASE THE STRAIN ON LIMITED POLICE RESOURCES BY ENCOURAGING MISDEMEANANTS TO FLEE INTO
RESIDENCES, WHICH WILL REQUIRE
MUCH LARGER POLICE RESPONSES
Contrary to Petitioner’s claims and the claims of
several amici curiae, warrant applications regularly
take several hours to complete. A “fast” warrant application may be processed in an hour and a half if factors
are favorable (e.g., it occurs during normal court hours,

25
has strong supporting facts, receives quick responses
from the magistrate or judge, etc.). Judges and magistrates expect more support for an arrest warrant than
a search warrant. Officers who need an arrest warrant
generally must collect evidence and complete an investigation in order to establish a sufficient factual basis
for probable cause. The higher expectations for arrest
warrants means they rarely issue quickly unless there
are compelling reasons to do so.
Officers can get a specific type of search warrant,
commonly referred to as a McNeely warrant, in thirty
to sixty minutes; however, McNeely warrants are not
representative for several reasons. First, McNeely warrants are limited in scope and merely allow officers to
take blood tests from drivers who are suspected of driving under the influence of intoxicating substances.
Such warrants do not have any bearing on the scenario
before the Court: misdemeanants entering private residences during a hot pursuit. Second, the suspect is already in police custody when officers apply for a
McNeely warrant. Third, McNeely warrants come on
pre-printed forms, so the applying officer need only fill
in the blanks. Finally, McNeely warrants involve an expedited process when compared to standard warrants
specifically because blood toxicity diminishes over
time, meaning every delay results in less available evidence until it disappears entirely.
Additionally, telephonic or electronic warrant applications do not accelerate the warrant application
process. They still require the applicant to submit an
affidavit with specific facts supporting probable cause

26
and identifying the person or thing to be searched or
seized, and they must still await a judge or magistrate’s review. A telephonic or verbal warrant application requires the same information, provided by oath
or affirmation.27 The difference is not one of timing but
rather of momentary accessibility. An officer in the
field can apply for a warrant without returning to an
office computer. However, the officer must still meet
the various requirements for warrant applications. It
is not always practical for officers to do so while responding to a call. Where a warrant is necessary, officers more often rely on colleagues at the department to
apply for the warrant rather than submit an electronic
or telephonic application. Warrant applications often
involve additional police officers and resources.
Police departments have an obligation to commit
their limited resources effectively. Where police do not
have the ability to make a warrantless entry after a
fleeing misdemeanant, a warrant application against
an entrenched suspect requires a substantial amount
of police resources. First, officers need to monitor the
building against the suspect’s escape. The strategy will
vary depending on the characteristics of the building
and the area (e.g., building size, layout, neighboring
land and structures, etc.), but typically a single-family
residence takes six to ten officers to monitor properly.
Most police chiefs would not be comfortable with fewer
than four to six officers providing constant monitoring.
27

See Cal. Penal Code § 817(c) (describing the requirements
for verbal declarations when applying for a warrant of probable
cause for arrest).

27
Any fewer officers creates issues of officer safety and
increases the chances that a suspect will escape.
Second, while officers lock down the scene, at
least one other officer (usually an investigator) must
gather the available facts and evidence to apply for an
arrest warrant. Third, supervisors and/or watch commanders need to monitor the situation and react accordingly (e.g., facilitate shift changes, redirect other
officers to cover additional patrols, etc.). Fourth, once
the officers secure a warrant, they must then coordinate the entry and arrest. The process will vary between agencies, but for some this will require calling
a specialist unit like a SWAT team. By then, the suspect has had time to find a potential means of escape,
destroy evidence, or barricade herself against the delayed police entry.
Between the initial responding officers, the investigator, supervisory staff, and specialist units, locking
down a building of any size to secure an arrest warrant
requires considerable police resources. Certainly, extenuating circumstances may justify a warrant application for an underlying misdemeanor offense.28
However, police departments do not have enough resources to make warrant applications for every misdemeanant pursuit that ends on private property. In
practice, when a misdemeanant escapes into a private
28

Extenuating circumstances may include identifying the
suspect and confirming that he or she has other, active warrants;
responding to a violent crime, like misdemeanor domestic violence (Cal. Penal Code § 243(e)(1)); or having reason to believe the
suspect poses an ongoing danger to the community.

28
home and the officers are unable to enter, the officers
often have no choice but to walk away. They may write
a report and request investigator follow-up the next
day, but such efforts usually prove futile. The delay allows suspects to destroy evidence or escape, especially
where officers were unable to identify them beforehand. Accordingly, misdemeanants who successfully
flee into homes will have escaped justice.
Instead, where officers closely pursue a misdemeanant, they can apply police resources more effectively when they have the option to follow into a home
or residence to complete the arrest. Exercise of that option still falls subject to a multitude of other considerations, but it is important for police officers to have the
discretion to complete a misdemeanant pursuit. Depriving officers of the categorical rule’s discretion will
mean more unresolved crimes and increased strain on
limited police resources. It will encourage misdemeanants to flee into private residences and hamper the police officers who pursue them.

29
IV. CONCLUSION
Based on the foregoing, the Court should uphold
the categorical rule for misdemeanor hot pursuits and
the decision of the Court of Appeal for the State of California, First Appellate Division.
Respectfully submitted,
J. SCOTT TIEDEMANN*
ALEX Y. WONG
LIEBERT CASSIDY WHITMORE
6033 W. Century Blvd., Suite 500
Los Angeles, CA 90045
(310) 981-2000
stiedemann@lcwlegal.com
awong@lcwlegal.com
*Counsel of Record
Counsel for Amicus Curiae
January 14, 2021

